<html>
<title> - EXPRESSING CONDOLENCES TO THE PEOPLE OF NEW ZEALAND FOR THE TERRIBLE LOSS OF LIFE AND PROPERTY SUFFERED AS A RESULT OF THE DEADLY EARTHQUAKE THAT STRUCK ON FEBRUARY 22, 2011 AND EXPRESSING HEARTFELT CONDOLENCES AND SUPPORT FOR ASSISTANCE TO THE PEOPLE OF JAPAN AND ALL THOSE AFFECTED IN THE AFTERMATH OF THE DEADLY EARTHQUAKE AND TSUNAMIS OF MARCH 11, 2011</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
 EXPRESSING CONDOLENCES TO THE PEOPLE OF NEW ZEALAND FOR THE TERRIBLE 
LOSS OF LIFE AND PROPERTY SUFFERED AS A RESULT OF THE DEADLY EARTHQUAKE 
 THAT STRUCK ON FEBRUARY 22, 2011 AND EXPRESSING HEARTFELT CONDOLENCES 
    AND SUPPORT FOR ASSISTANCE TO THE PEOPLE OF JAPAN AND ALL THOSE 
  AFFECTED IN THE AFTERMATH OF THE DEADLY EARTHQUAKE AND TSUNAMIS OF 
                             MARCH 11, 2011

=======================================================================

                                 MARKUP

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON

                      H. Res. 139 and H. Res. 172

                               __________

                             MARCH 31, 2011

                               __________

                           Serial No. 112-10

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
65-496                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9bfcebf4dbf8eee8eff3fef7ebb5f8f4f6b5">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                 DONALD A. MANZULLO, Illinois, Chairman
RON PAUL, Texas                      ENI F.H. FALEOMAVAEGA, American 
BILL JOHNSON, Ohio                       Samoa
DAN BURTON, Indiana                  FREDERICA WILSON, Florida
EDWARD R. ROYCE, California          GARY L. ACKERMAN, New York
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
MIKE KELLY, Pennsylvania             GREGORY W. MEEKS, New York
JEFF DUNCAN, South Carolina          DENNIS CARDOZA, California


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H. Res. 139: Expressing condolences to the people of New Zealand 
  for the terrible loss of life and property suffered as a result 
  of the deadly earthquake that struck on February 22, 2011......     2
H. Res. 172: Expressing heartfelt condolences and support for 
  assistance to the people of Japan and all those affected in the 
  aftermath of the deadly earthquake and tsunamis of March 11, 
  2011...........................................................     7

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE RECORD
                                APPENDIX

Markup notice....................................................    14
Markup minutes...................................................    15
The Honorable Michael M. Honda, a Representative in Congress from 
  the State of California: Prepared statement....................    16
 EXPRESSING CONDOLENCES TO THE PEOPLE OF NEW ZEALAND FOR THE TERRIBLE 
LOSS OF LIFE AND PROPERTY SUFFERED AS A RESULT OF THE DEADLY EARTHQUAKE 
 THAT STRUCK ON FEBRUARY 22, 2011 AND EXPRESSING HEARTFELT CONDOLENCES 
    AND SUPPORT FOR ASSISTANCE TO THE PEOPLE OF JAPAN AND ALL THOSE 
  AFFECTED IN THE AFTERMATH OF THE DEADLY EARTHQUAKE AND TSUNAMIS OF 
                             MARCH 11, 2011

                              ----------                              


                        THURSDAY, MARCH 31, 2011

                  House of Representatives,
              Subcommittee on Asia and the Pacific,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:05 p.m., in 
room 2360, Rayburn House Office Building, Hon. Donald A. 
Manzullo (chairman of the subcommittee) presiding.
    Mr. Manzullo. The subcommittee will come to order.
    After the conclusion of this brief business meeting, we 
will proceed immediately to today's hearing.
    As previously announced, we have two noncontroversial 
resolutions, H. Res. 139 and H. Res. 172.
    [The resolutions follow:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Manzullo. Because we are taking them up as introduced 
and bipartisan consultations have not indicated the need for 
any amendments, it is the intention of the chair to consider 
these measures en bloc and, by unanimous consent, to report 
them favorably to the full Committee on Foreign Affairs.
    All members are given leave to insert remarks on the 
measures into the record, should they choose to do so.
    Before turning to the ranking member, I would like to say a 
few words about the horrible tragedies that struck our dear 
friends in New Zealand and Japan.
    In the short time span of just over 1 month, the world has 
witnessed two horrific natural disasters that struck at the 
very core of humanity.
    On February 22, 2011, the Canterbury region of New 
Zealand's South Island was struck by a magnitude 6.3 earthquake 
at 12:51 p.m. local time. This was the second quake to strike 
Christchurch, and it occurred at the worst possible time of the 
day. The earthquake destroyed historic landmarks, buckled 
roads, and left 10,000 homes beyond repair and another 100,000 
buildings damaged. It left in its wake a death toll that is 
expected to reach close to 200 from all walks of life--
families, friends, students, and teachers--and from around the 
world, including the United States.
    I have strong feelings regarding this tragedy because my 
good friend, Eni Faleomavaega, and I, along with six other 
Members of Congress, were in Christchurch attending the U.S.-
New Zealand Partnership Forum just prior to the quake. We 
missed the quake by 2 hours and 21 minutes. Many others did 
not. Assistant Secretary Kurt Campbell and Cal Cohen, both of 
whom are scheduled to testify shortly, and close to 50 American 
delegates at the forum, were in the quake. Thankfully, none of 
them were hurt.
    We were informed of this tragedy by our colleagues in the 
New Zealand Parliament during a meeting in Wellington, and our 
hearts ached at the loss that they were experiencing.
    House Res. 139 expresses the House of Representatives' 
condolences to the people of New Zealand for the terrible loss 
of life suffered as a result of the quake.
    I urge members of the subcommittee to support this 
resolution.
    Less than 3 weeks after New Zealand's tragedy, Japan was 
struck by a magnitude 9.0 earthquake. This catastrophic quake, 
recorded as the fourth strongest in the world, was the most 
powerful to ever hit Japan. The earth shook for over 5 minutes 
and produced an enormous tsunami that surged inland, destroying 
entire towns and killing huge numbers of people. As of this 
week, over 11,000 people have been confirmed dead, while 
another 16,000 remain missing. The Fukushima nuclear power 
plant sustained tremendous damage, and, regrettably, we will 
not know the long-term effects for many years.
    To date, 134 countries have offered assistance, including a 
search and rescue team from New Zealand, even as it recovers 
from its own disaster. Japan is facing its largest crisis since 
World War II, and I admire the people of Japan for their 
steadfast courage, resilience, and compassion in confronting 
this extreme adversity. The U.S. has 15,000 U.S. personnel on-
ground taking part in around-the-clock operations. We will 
continue to do whatever it takes to support one of our closest 
friends in the region.
    Without objection, the written statements of Representative 
Honda, sponsor of House Resolution 172, will be entered into 
the record.
    I now recognize the ranking member for his remarks.
    Mr. Faleomavaega. Mr. Chairman, I also want to commend you 
for your leadership and for the initiative that you have taken 
on behalf of our subcommittee in offering these two resolutions 
touching on the tragedies and the catastrophes that are now 
encountered by the good people of New Zealand as well as the 
people of Japan.
    I do want to commend you. As you have stated earlier, this 
is a bipartisan effort on your part and for which I really want 
to compliment your efforts in seeing that we do this.
    And, on behalf of my colleagues on this side of the aisle, 
we wholeheartedly support the substance and the intent of these 
two resolutions. And I would like to urge my colleagues on both 
sides of the aisle to support these resolutions.
    Mr. Manzullo. Accordingly, without objection, the following 
resolutions are agreed to and reported favorably to the full 
Committee on Foreign Affairs: H. Res. 139 and H. Res. 172.
    That concludes our markup. The subcommittee markup stands 
adjourned.
    [Whereupon, at 2:10 p.m., the subcommittee proceeded to 
other business.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Honda statement deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
